No. ______

In the Supreme Court of the United States
________________________
DUANE SHORT,
Petitioner,
v.
STATE OF OHIO,
Respondent.
________________________
On Petition for Writ of Certiorari to
the Supreme Court of Ohio
________________________
APPLICATION FOR L EAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Duane Short, respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.
Petitioner, with respect to the basis of the attached petition, was granted leave
to proceed in forma pauperis in the following courts: the Montgomery Common Pleas
Court found Petitioner Short indigent and appointed counsel for his capital
proceedings, See State v. Short, Case No. 2004 CR 02635, (Montgomery County C.P.);
the Montgomery County Court of Appeals recognized Short’s indigent status and
ordered its clerk to revise the financial records to waive all costs and fees imposed
against Short following his appeal; and the Court below, the Supreme Court of Ohio,
found Short indigent and appointed counsel for his direct appeal and also for his

Application to Re-Open. State v. Short, 129 Ohio St.3d 360, 2011-Ohio-3641. See
appointment orders, attached hereto as Exhibit A. More recently, the Second District
Court of Appeals sustained Short’s Motion and waived all costs affiliated with his
appeal. See Decision and Entry waiving costs, attached hereto as Ex. B.
Every court since Petitioner Short was indicted in 2004 on charges that carried
the potential for the death penalty has permitted him to proceed in forma pauperis.
Petitioner Duane Short respectfully requests leave to file the attached petition for
writ of certiorari without payment of costs and to proceed in forma pauperis.
Respectfully submitted,
OFFICE OF THE OHIO PUBLIC DEFENDER
/s/ Erika M. LaHote
Erika M. LaHote [0092256]
Assistant Public Defender
Counsel of Record
Kimberly S. Rigby [0078245]
Supervising Attorney
Death Penalty Department
250 E. Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Erika.LaHote@opd.ohio.gov
Kimberly.Rigby@opd.ohio.gov

2

SEP 082011
'T4Q o'" uyrQmQ ^^^^^ ^f (04tt,

State of Ohio
V.

SUPREM£COURTOOFOHIO

Case No. 2006-1366
ENTRY

Duane Short

This cause came on for further consideration upon the filing of appellant's motion for
stay of execution scheduled for January 9, 2013, and motion for appointment of counsel.
Upon consideration thereof, it is ordered by the Court that the motions are granted.
It is further ordered that this stay shall remain in effect until exhaustion of all state
post-conviction proceedings, including any appeals. Counsel for appellant and for
appellee shall notify this Court when all proceedings for post-conviction relief before the
courts of this state have been exhausted.
It is further ordered by the Court that the Ohio Public Defender's office is appointed
to represent appellant in this case.

(Montgomery County Court of Common Pleas; No. 2004CR02635)

Maureen O'Connor
Chief Justice

EXHIBIT

A

EXHIBIT

A1

EXHIBIT

B

